No. 19-1269

In the Supreme Court of the United States
TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, ET AL., PETITIONERS,
v.
TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,
RESPONDENTS.
ON PETITION OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF FOR HIGH TECH INVENTORS ALLIANCE, COMPUTER & COMMUNICATIONS INDUSTRY
ASSOCIATION, ALLIANCE FOR AUTOMOTIVE INNOVATION, GOOGLE LLC, AND HTC CORPORATION AS
AMICI CURIAE IN SUPPORT OF PETITIONER
SAMUEL BRYANT DAVIDOFF
Counsel of Record
MELISSA B. COLLINS
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
sdavidoff@wc.com

TABLE OF CONTENTS

Page
INTEREST OF AMICI CURIAE .............................................. 1
SUMMARY OF THE ARGUMENT .......................................... 3
ARGUMENT .................................................................................. 5
I. Standards, Standard Setting Organizations,
And The FRAND Commitment Shape Technological Innovation ..................................................................... 5
A. The Proliferation Of Technical Standards
Necessitates Widespread Licensing Of Patented Technology ............................................................. 5
B. Continued Innovation And Adoption Of
Standards Depend On Enforceable Contractual FRAND Commitments ............................................. 9
II. Real-World SEP Licensing Is A Complex Process That Benefits Enormously from Judicial
Clarity ...................................................................................... 11
A. Multiple, Portfolio-Wide Licenses Are Common .................................................................................... 11
B. Incomplete Information Is The Norm.......................... 13
C. Judicial Decisions Provide Important Information .......................................................................... 15
III. The Critical Issue In The Litigation Below
Was Specific Performance Of A FRAND Contract, Not Patent Damages ................................................... 16
A. Potential Licensees Turn To The Judicial
System To Enforce Specific Performance
of FRAND Commitments .............................................. 16
B. Portfolio-Wide FRAND Rates Differ From
Patent Damages In Fundamental Ways ...................... 16

(1)

ii
IV. The Federal Circuit’s Misconception of
FRAND Rate-Setting Procedures As Embodying Patent Damages Will Have Negative
Practical Impacts On SEP Licensing.................................. 18
A. Jury Verdicts in FRAND Rate-Setting Actions Fail To Set Forth the Useful
Guidance For Negotiating Parties That
Well-Reasoned Judicial Opinions Provide ................... 19
B. The Federal Circuit’s Decision Will Encourage Litigation Focused On PatentSpecific Rather Than Portfolio-Wide,
Analysis ............................................................................. 21
CONCLUSION ............................................................................ 24

iii
TABLE OF AUTHORITIES
Page
Cases:
Adams v. Johns-Manville Corp.,
876 F.2d 702 (9th Cir. 1989) ..................................... 16
Commonwealth Sci. & Indus. Research
Organisation v. Cisco Sys., Inc.,
809 F.3d 1295 (Fed. Cir. 2015)................................. 10
Ericsson, Inc. v. D-Link Sys., Inc.,
773 F.3d 1201 (Fed. Cir. 2014)................................. 10
In re Innovatio IP Ventures, LLC Patent
Litig., No. 11 C 9308, 2013 WL 5593609
(N.D. Ill. Oct. 3, 2013) ............................... 9, 11, 14, 22
Microsoft Corp. v. Motorola, Inc.,
696 F.3d 872 (9th Cir. 2012) ..................................... 11
Microsoft Corp. v. Motorola, Inc.,
No. C10-1823JLR, 2013 WL 2111217
(W.D. Wash. Apr. 25, 2013) .................................. 9, 22
Minks v. Polaris Indus., Inc.,
546 F.3d 1364 (Fed. Cir. 2008)................................. 22
Statute:
35 U.S.C § 286 .................................................................. 18
Other Authorities:
Jason R. Bartlett & Jorge L. Contreras,
Rationalizing FRAND Royalties: Can
Interpleader Save the Internet of Things,
36 Rev. Litig. 285, 295–96 (2017) ............................. 23
Members, CCAI,
https://www.ccianet.org/about/members/
(last visited June 3, 2020) ........................................... 2

iv
Page
Other Authorities—continued:
Corporate Member Index, IEEE Standards
Ass’n,
https://standards.ieee.org/about/corpchan/fu
ll-member-listing.html (last visited May 29,
2020) .............................................................................. 7
Ericsson’s Response to FTC Request for
Comments, Standard Setting Workshop
https://bit.ly/2BjXeBY .............................................. 13
ETSI Intellectual Property Rights Policy ¶ 6.1
(Dec. 4, 2019), https://bit.ly/2MmtoPD ................. 8, 9
Membership of ETSI, Eur. Telecomms.
Standards Inst.,
https://www.etsi.org/membership (last
visited May 29, 2020)................................................... 7
5G FAQs, FCC (Dec. 16, 2019),
https://www.fcc.gov/5g-faqs; ...................................... 6
Mark A. Lemley & Carl Shapiro, A Simple
Approach to Setting Reasonable Royalties
for Standard-Essential Patents,
28 Berkeley Tech. L.J. 1135, 1149–50 (2013) ......... 12
Mark A. Lemley & Carl Shapiro, Patent
Holdup and Royalty Stacking,
85 Tex. L. Rev. 1991 (2007) ...................................... 10
Gregory K. Leonard & Mario A. Lopez,
Determining RAND Royalty Rates for
Standard-Essential Patents, 29 Antitrust
86 (2014) ...................................................................... 10
Knud Lasse Leuth, IoT 2019 Year in Review:
The 10 Most Relevant IoT Developments of
the Year, IoT Analytics (Jan. 7, 2020),
https://iot-analytics.com/iot-2019-in-review/ ........... 7

v
Page
Other Authorities—continued:
Kais Mekki et al., A Comparative Study of
LPWAN Technologies for Large-Scale IoT
Deployment, ICT Express 1 (2019) .......................... 6
Restatement (Second) of Contracts § 357
(Am. Law Inst. 1981) ................................................ 16
U.S. Dep’t of Justice & Fed. Trade Comm’n,
Antitrust Enforcement & Intellectual Property Rights: Promoting Innovation &
Competition 33 (2007) ............................................. 7, 9

In the Supreme Court of the United States
TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, ET AL., PETITIONERS,
v.
TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,
RESPONDENTS.
ON PETITION OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

INTEREST OF AMICI CURIAE1

Amici curiae are the High Tech Inventors Alliance
(“HTIA”), the Computer & Communications Industry Association (“CCIA”), the Alliance for Automotive
Innovation, Google LLC, and HTC Corporation.
HTIA is a coalition created by leading technology
companies to advocate on patent law and policy issues in

Amici affirm that counsel of record for all parties received notice in
accordance with Rule 37.2. Petitioners’ consent is on file with the
Clerk of Court, and counsel for Respondents have consented in writing to the filing of this brief. Amici affirm that no counsel for any
party authored this brief in whole or in part and that no counsel or
party made a monetary contribution intended to fund the preparation
or submission of this brief. No person other than amici, their members, or their counsel made a monetary contribution to its preparation
or submission.

1

(1)

2
favor of a system that promotes and protects real investments in technological development.2 HTIA’s members
create computer, software, semiconductor, and communications products and services that support growth in
every sector of the economy. To support such ongoing innovation, HTIA’s members invest over $100 billion in
research and development each year, and they collectively
hold more than 300,000 patents.
CCIA is an international nonprofit association representing a broad cross-section of computer,
communications, and Internet industry firms that collectively employ nearly a million workers and generate
annual revenues in excess of $540 billion. CCIA’s members are leaders in research and development in a wide
range of technologies, holding approximately 5% of all
currently active U.S. patents, and actively participate as
both licensors and licensees of standard essential patents
(“SEPs”).3
The Alliance for Automotive Innovation is the leading advocacy group for the auto industry, representing 35
automobile manufacturers and value chain partners who
together produce nearly 99 percent of all light-duty vehicles sold in the United States.4

2

The members of HTIA are Adobe, Amazon, Cisco, Dell, Google, Intel, Microsoft, Oracle, Salesforce, and Samsung.

A list of CCIA’s members is available on the association’s website,
https://www.ccianet.org/about/members/ (last visited June 3, 2020).
3

The members of the Alliance for Automotive Innovation include (alphabetically) Aptiv PLC, Aston Martin, Robert Bosch LLC, BMW
Group, Byton, Cruise LLC, DENSO, Fiat Chrysler Automobiles,
Ferrari S.p.A., Ford Motor Company, General Motors Company,
Honda Motor Company, Hyundai Motor America, Isuzu Motors Ltd.,
Jaguar Land Rover, Karma Automotive, Kia Motors, Local Motors,

4

3
Google LLC and HTC Corporation are companies
that develop, manufacture, and sell modern technologies,
including smartphones, laptops, operating systems,
online platforms, and internet-connected devices, as well
as the software and services that support them.
Multiple amici (or their members) participate in
standard setting organizations and are both licensors and
licensees of SEPs. The Federal Circuit’s conclusion in the
case below requiring that a jury, rather than a judge, set
backward-looking release payments for patent portfolio
licenses will have significant ramifications for amici and
the technology industry more generally.
SUMMARY OF THE ARGUMENT
The billions of mobile phones that connect our
global economy, the millions of Internet-based video chats
that connect schools and offices every day, the fleets of
safe and efficient “smart” cars that will traverse our country in the years to come, and myriad other major drivers
of progress in the modern world depend on standardized
technology. Over the past decades, industry standards
that enable high tech devices to communicate and interoperate have spurred tremendous growth in the digital
economy. A nuanced contractual regime facilitates the
rapid adoption of these standards, allowing thousands of
companies that claim rights to tens of thousands of patents covering these standards to reach broad portfolio
licenses with the vast array of innovators who implement
these standards. A key part of that contractual regime is
Maserati, Mazda Motor Corporation, McLaren Automotive, Mercedes-Benz USA, Mitsubishi Motors, Nissan Motor Company, NXP
Semiconductors, Panasonic Corporation, Porsche, PSA North America, SiriusXM, Subaru, Suzuki, Texas Instruments, Toyota Motor
Company, Volkswagen Group of America, and Volvo Car USA.

4
a promise by contributors to many of these standards to
make their patents available for license at “fair, reasonable, and non-discriminatory” or “FRAND” rates.
Amici stand on both sides of these licenses. They
own thousands of SEPs, and they themselves are major
producers of technology that depends on these standards.
They and the rest of the digital economy depend on a lucid, well-functioning FRAND licensing system. With it,
standards proliferate and innovation progresses; without
it, standards become legal minefields and innovation bogs
down in inefficient negotiation and litigation.
How the United States judicial system conceives of
and adjudicates FRAND license rates is critical to the
success of technical standards. Judicial interpretation of
the FRAND contractual obligation shapes license negotiations and outcomes for the economy’s largest and most
important technology innovators. Although most licenses
are negotiated, not set by courts, the rates set and methodologies used in litigation influence the negotiations of
private parties who hope to reach mutual agreement.
Well-reasoned judicial opinions evaluating and setting
rates for patent portfolios help parties reach those agreements.
Amici and other licensors and implementers of patented technology watched this case closely in the courts
below with the expectation that the resulting judicial decision would provide guidance on the appropriate use of
valuation methodologies when assessing portfolio-wide license payments on FRAND terms. The district court’s
decision did just that. It provided a thoughtful, well-reasoned overview of various licensing-rate calculation
methodologies and a nuanced explanation of how the court
selected a methodology consistent with the parties’
FRAND obligations. Had that decision been upheld,
modified, or even reversed on the merits, it would have

5
provided vital clarity and guidance to industry participants, like amici and their members, who are engaged in
numerous negotiations over FRAND rates.
The Federal Circuit, however, did not reach the
substantive question at all. Brushing aside the contractual basis for the FRAND obligation and the remedy of
specific performance that Petitioners sought, the opinion
below instead equated consideration for a portfolio license
with patent infringement damages and concluded that
such questions are for juries to decide. This holding misapprehends both the role of lawsuits to enforce licensing
commitments and the scope of the resulting licenses. If
the opinion stands, it will remove the opportunity for
courts to play a key role guiding the FRAND licensing
negotiations that happen every day.
Fair and reasonable licensing arrangements benefit patent holders, implementers, and ultimately the
consumers of the innovative products that licensed technology makes possible. Amici respectfully urge this Court
to issue a writ of certiorari and review the Federal Circuit’s conclusion that licensors have a right to trial by jury
for these decisions.
ARGUMENT
I.

Standards, Standard Setting Organizations, And The
FRAND Commitment Shape Technological Innovation.
A.

The Proliferation Of Technical Standards Necessitates Widespread Licensing Of Patented
Technology.

Modern electronics depend on the compatibility
and interoperability of devices, components, and infrastructure manufactured by multiple companies. A single
cellular telephone call, for example, may require seamless

6
operations between devices made by different manufacturers operating on different wireless carriers using
infrastructure built and stationed around the globe. Manufacturers seeking to participate in this dynamic and
interconnected environment adhere to technical standards specifying common design features to ensure their
devices can “talk” to others.
These standards are everywhere that systems interoperate. For example, cellular networks (like 3G and
4G) are standardized, as are Wi-Fi home and office networks. Audio- and visual-coding standards enable users
to transmit and consume digital media, USB standards allow users to connect physically any of a wide range of
computer accessories, and standards-dependent features
like encryption and digital signatures allow people to conduct remote business securely. The prevalence of
standards-implementing devices is growing, as more and
more everyday consumer and business products incorporate wireless communication capabilities.
These
“Internet of Things” (“IoT”) devices range from doorbells
to refrigerators to inventory management systems. Automobiles are another prominent example of the
proliferation of standards in what traditionally was not a
“tech” industry, with new vehicle models incorporating
standardized communication, electrical, and sensor technologies, among others.
The arrival of faster 5G cellular networks and the
spread of low-power wide-area connections will boost this
growth of connected devices even further. See 5G FAQs,
FCC (Dec. 16, 2019), https://www.fcc.gov/5g-faqs; Kais
Mekki et al., A Comparative Study of LPWAN Technologies for Large-Scale IoT Deployment, 5 ICT Express 1, 1,
5-6 (2019). At the end of 2019, over nine billion IoT devices
were connected worldwide; that number is expected to increase approximately three-fold by 2025. Knud Lasse

7
Leuth, IoT 2019 in Review: The 10 Most Relevant IoT
Developments of the Year, IoT Analytics (Jan. 7, 2020),
https://iot-analytics.com/iot-2019-in-review/.
Future
technological advancements to enhance safety and
productivity, such as self-driving vehicles, depend on the
continued development, adoption, and incorporation of
standards.
Voluntary membership organizations known as
standard setting organizations (“SSOs”) drive the development of these standards. Typically, many companies
collaborate in the process, contributing and selecting
technology for inclusion in a standard. U.S. Dep’t of Justice & Fed. Trade Comm’n, Antitrust Enforcement &
Intellectual Property Rights: Promoting Innovation &
Competition 33 (2007) (“2007 FTC Report”). Members of
the major telecommunications SSOs, like the European
Telecommunications Standards Institute (“ETSI”)
(which developed the cellular standards at issue in the
case below) and the IEEE (which developed the commonly-deployed 802.11 Wi-Fi standard), read as a who’swho of worldwide market participants. They include
firms like Google, Apple, Amazon, Ford, Samsung, Nokia,
General Electric, AT&T, and Intel, as well as smaller
companies, universities, governmental institutions, and
research bodies. See Membership of ETSI, Eur. Telecomms.
Standards
Inst.,
https://www.etsi.org/membership (last visited May 29,
2020); Corporate Member Index, IEEE Standards Ass’n,
https://standards.ieee.org/about/corpchan/full-memberlisting.html (last visited May 29, 2020).
All of the billions of interconnected devices that implement technical standards must, of necessity, also
practice the patented technology incorporated within
those standards. When it is impossible to comply with a

8
standard without practicing the claims of a particular patent, that patent is considered “essential” to the standard
and referred to as a “standard essential patent,” or
“SEP.” During the standard-development process, SSOs
like ETSI request or require their participants to disclose
patents and patent applications that may be or may become essential to a particular standard. See, e.g., ETSI
Intellectual Property Rights Policy ¶ 6.1 (“ETSI IPR Policy”), https://bit.ly/2MmtoPD. SEPs covering a single
standard may number in the thousands, and be held by
numerous companies. In this case, for example, Ericsson
asserted that it alone owns over 190 patent families essential to the 2G, 3G, and/or 4G wireless standards used by
all modern mobile phones, with each family containing
multiple patents and each patent, multiple claims.
C.A.J.A. 59. Other companies account for scores of other
patents declared essential to those same standards.
Once an industry segment adopts a particular
standard, commercially viable devices have little choice
but to adhere to the standard. All parties who manufacture devices complying with that standard are therefore
“locked in” to practicing the patented technology of multiple patent holders. This lock-in effect is magnified
because many modern devices incorporate a broad range
of technology and therefore implement numerous royaltybearing standards. A smartphone, for example, likely implements multiple telecommunications standards, as well
as Wi-Fi, NFC, and audio- and video-coding standards.
As a result, thousands of manufacturers implement the
technology embodied in tens of thousands of patents
every day.
Although all parties acknowledge that standards
incorporate patented technology, often it is not clear—to
manufacturers or to patent owners—precisely which patents are practiced when implementing a standard. SSOs

9
generally do not make a determination of which patents
declared essential to a standard actually are essential to
that standard, leaving market participants to operate with
the attendant uncertainty.
B.

Continued Innovation And Adoption Of
Standards Depend On Enforceable Contractual FRAND Commitments.

In an effort to mitigate potential anti-competitive
effects that may arise when parties are locked in to certain
technologies, many SSOs request (or require) that patent
holders commit to licensing SEPs on fair, reasonable, and
non-discriminatory terms.5 See, e.g., ETSI IPR Policy ¶ 4.
Otherwise, SEP holders could seek to extract rates from
prospective licensees not warranted by the patent holders’ technical contributions, simply because the
implementers have no realistic alternatives. See 2007
FTC Report at 38–39. SSOs generally do not further define, let alone set, FRAND terms for their members,
leaving it to the parties and courts to determine what
terms are or are not FRAND in a particular context.
FRAND terms aim to compensate patent owners
appropriately for their inventions, thereby encouraging
continuing innovation, while ensuring that rates reflect
actual technological contributions and allow for widespread adoption of the standard. See, e.g., In re Innovatio
IP Ventures, LLC Patent Litig., No. 11 C 9308, 2013 WL
5593609, at *10–11 (N.D. Ill. Oct. 3, 2013); Microsoft Corp.
v. Motorola, Inc., No. C10-1823JLR, 2013 WL 2111217, at
Some SSOs refer only to “reasonable and non-discriminatory” terms
(“RAND”), but U.S. courts have interpreted the two commitments as
essentially synonymous. See Microsoft Corp. v. Motorola, Inc., No.
C10-1823JLR, 2013 WL 2111217, at *12 n.7 (W.D. Wash. Apr. 25,
2013).

5

10
*12 (W.D. Wash. Apr. 25, 2013). FRAND rates, like all
reasonable royalty rates, “must be apportioned to the
value of the patented invention.” Ericsson, Inc. v. D-Link
Sys., Inc., 773 F.3d 1201, 1232 (Fed. Cir. 2014). Accordingly, they may not capture the value of any “unpatented
features reflected in the standard,” or any “value added
by the standard’s adoption of the patented technology.”
Id.; see also Commonwealth Sci. & Indus. Research Org.
v. Cisco Sys., Inc., 809 F.3d 1295, 1305 (Fed. Cir. 2015).
Continued innovation and adoption of new technologies require that prospective licensors comply with their
FRAND commitments. Given the number of SEPs that
may be practiced in a single device, the aggregate royalty
burden can be crippling if patent holders are able to obtain royalties that exceed FRAND terms. This concern,
known as “royalty stacking,” ultimately threatens the
ability of manufacturers to bring innovative, commercially
viable devices to market, even if the “excess” may appear
at first blush to be insubstantial for a particular individual
patent and rate. See, e.g., Mark A. Lemley & Carl
Shapiro, Patent Holdup and Royalty Stacking, 85 Tex. L.
Rev. 1991, 1993, 2010–17 (2007); Gregory K. Leonard &
Mario A. Lopez, Determining RAND Royalty Rates for
Standard-Essential Patents, 29 Antitrust 86, 87 (2014).
This makes it important to take into account all SEPs covering a given standard when evaluating FRAND terms.
Ultimately, for FRAND commitments to restrain
anti-competitive business practices effectively, they must
be enforceable. Even well-intentioned parties (on either
side of the negotiating table) may misperceive the value
of the patents they seek to license; unscrupulous parties
can do far worse and seek to extract excessive royalties
through hold up, as described above. When this happens,
prospective licensees look to the legal system for recourse. Courts recognize that FRAND promises like the

11
ones made by Ericsson to ETSI are contractual commitments that third-party beneficiaries may sue to enforce.
See, e.g., Microsoft Corp. v. Motorola, Inc., 696 F.3d 872,
884 (9th Cir. 2012); Innovatio, 2013 WL 5593609, at *4.
Exactly how those obligations are enforced—including
whether by a judge or by a jury, the question on which
Petitioners seek review—influences to what degree
standards are effective at encouraging innovation and
adoption of new technologies.
II.

Real-World SEP Licensing Is A Complex Process
That Benefits Enormously From Judicial Clarity.

Given the proliferation of standards and standards-incorporating technology, licensing decisions are a
crucial component of both SEP patent-holders’ and implementers’ businesses. The fundamental nature of technical
standards—facilitating widespread adoption of compatible and interoperable technologies in devices created by a
host of different manufacturers—breeds a global ecosystem of repeat players dealing with myriad patents and no
commercially-realistic alternatives. Accordingly, licensing practices for SEPs covering major industry-wide
standards differ in several material respects from gardenvariety patent licensing.
A.

Multiple, Portfolio-Wide Licenses Are Common.

SEP licensees and licensors often negotiate portfolio-wide agreements, as opposed to successive licenses
for each patent allegedly essential to a given standard.
This is because product manufacturers practice the standardized technology as a whole, rather than picking and
choosing between different technologies within the standard (let alone electing to implement individual patents).

12
By choosing to follow the industry standard, the implementer automatically finds itself practicing an
undifferentiated group of what could be thousands of patents. For companies that manufacture or sell products
around the globe, this can include scores of patents registered in multiple jurisdictions. Parties therefore often
agree to negotiate a license to all of a particular patent
holder’s SEPs for a given standard rather than to enter
into licenses on a patent-by-patent basis.6
Although a particular bilateral portfolio license
may be the only license between any two specific parties,
it does not stand independently. Because multiple patent
holders generally hold the SEPs for a single standard, and
multiple standards may be practiced in a single device,
standards implementers are likely to enter into multiple
portfolio-wide SEP licenses. Licensors, too, are likely to
enter into multiple portfolio-wide licenses with different
implementers.
Thus, any agreement the parties reach will be
made against the backdrop of other rates that must be
paid or that may be demanded in the future. If the potential cumulative rate, or royalty stack, becomes excessive,
product manufacturers will have fewer incentives to incorporate the standard, innovate themselves, or even
produce the device in the first place. See, e.g., Mark A.
Lemley & Carl Shapiro, A Simple Approach to Setting
Reasonable Royalties for Standard-Essential Patents, 28
To be sure, parties often discuss the technical merits of specific patents, including evaluating whether the patents claimed by the patent
holder to be SEPs actually are essential to the standard. However,
in such circumstances, the parties are still generally looking to reach
a license for all relevant and valid SEPs, not a piecemeal license for
only some of them.
6

13
Berkeley Tech. L.J. 1135, 1149–50 (2013). And although
individual licensors often seek to maximize the royalties
they can obtain in specific one-on-one negotiations, licensors as a class benefit from a reasonable distribution of
the total royalty burden for a product, which would encourage widespread adoption of the standard.7
B.

Incomplete Information Is The Norm.

Parties in the real world often conduct negotiations
for SEP licenses with imperfect information. Because negotiations generally occur on the portfolio level, SEP
licensing in practice does not, and cannot, focus narrowly
on each patent individually. Parties, however, frequently
lack detailed information about the quality of their counter-parties’ full patent portfolios or their counter-parties’
relevant licensing history.
Given the large numbers of potential SEPs often
at issue, it would be too costly and time-intensive to expect
all licensees—including new entrants with little or no
prior experience with the technology at issue—to conduct
a thorough patent-by-patent analysis. Although negotiations may at times involve some level of analysis of
individual patents selected by the licensor, the patents
may not be representative of the strength of the portfolio.

Ericsson has expressly noted this fact, stating to the Federal Trade
Commission that “if the royalty levels for a standard are cumulatively
too high, they will adversely impact and may negate the economic
benefits of standardization. It is, therefore, important when negotiating royalty rates that individual licensors take into account the
cumulative royalty levels payable by licensees.” See Ericsson’s Response to FTC Request for Comments, Standard Setting Workshop
at 6, https://bit.ly/2BjXeBY.

7

14
To assess portfolio royalty rates in the same way as litigating parties approach patent infringement damages, a
party would need to evaluate the validity, infringement,
enforceability, technical importance, and value over possible alternatives for each and every patent in every
portfolio that might be asserted against the standard.8
This kind of patent-by-patent rate analysis is not commercially reasonable for a single large portfolio, let alone the
portfolios of multiple patent holders, and is not typically
done by parties in the real world.
Real-world negotiations also generally are devoid
of clear information regarding the licensor’s or licensee’s
agreements with other companies, which tend to be governed by strict confidentiality obligations. See Innovatio,
2013 WL 5593609, at *39 (observing that “RAND licenses
are relatively rare in the marketplace”). It is not unusual
in a licensing negotiation for a licensor to have an extensive licensing history that the licensee has no ability to
access, let alone evaluate. Even where licenses, or information about licenses, are available, those licenses may
not be easily applicable to the negotiation at hand, because licenses vary across many dimensions, such as
geographic scope, cross-licensing provisions, and the
structure of payment terms.9 This can make it difficult to
rely on other licenses as the touchstone for determining
FRAND terms.

Parties litigating patent infringement cases in U.S. courts often devote significant time and resources to acquire through discovery
information important for the detailed analysis of these issues. Negotiating parties do not have access to the same information.

8

The district court’s analysis here demonstrates the complexities of
attempting to “unpack” the various elements of pre-existing licenses
for purposes of comparison. See C.A.J.A. 79-114.

9

15
C.

Judicial Decisions Provide Important Information.

In this context, written judicial decisions greatly
assist negotiating parties in reaching agreement. Although opinions generally do not publicly disclose all of the
commercial terms at issue in a dispute, they set forth the
reasoning and ultimate conclusions. With this, prospective licensors and licensees can ground their discussions
in methodologies that courts actually use. Understanding
the general arc that a dispute likely would take in court
can help parties predict ranges of judicial outcomes and
negotiate within those parameters.
Written decisions also make public factual information that can influence negotiations. For example, a
court’s evaluation of the number of patents essential to a
standard or the relative strength of a portfolio can have
an impact on other negotiations involving the same standard. The whole ecosystem benefits from a court’s insight
into a particular portfolio, particularly when parties to a
specific litigation are significant repeat players, like Ericsson is here. Market participants also learn about
license terms that otherwise would remain confidential.
Even when sensitive financial terms are redacted, as they
were below, a court’s analysis of structural terms and relative rates narrows the information gap between licensors
and licensees. In the interconnected ecosystem of SEP
licensing, where the success of a standard depends on
agreements between multiple licensor-licensee pairs,
every piece of information that contributes to common understanding can help facilitate future agreements.

16
III.

The Critical Issue In The Litigation Below Was Specific Performance Of A FRAND Contract, Not Patent
Damages.
A.

Potential Licensees Turn To The Judicial System To Enforce Specific Performance Of
FRAND Commitments.

When negotiating parties cannot reach agreement
on FRAND terms, they turn to the courts. Patent holders, on the one hand, may bring typical patent-specific
infringement claims, but those actions do not result in
portfolio-wide licenses and are not at issue here. Implementers who desire a license, in contrast, may assert
claims arising out of the overarching FRAND contractual
obligation, not the practicing of any particular patent. In
such cases, the implementer is not asking the court to
quantify harm caused by a wrongful act (infringement),
but rather to require—at a price—the patent holder to
provide the implementer something it already was entitled to receive: a license on FRAND terms. This is
specific performance of a contract promise, Restatement
(Second) of Contracts § 357 (Am. Law Inst. 1981), to which
no jury trial right attaches, see, e.g., Adams v. JohnsManville Corp., 876 F.2d 702, 709 (9th Cir. 1989); see generally Pet. 21–23.
B.

Portfolio-Wide FRAND Rates Differ From
Patent Damages In Fundamental Ways.

The Federal Circuit’s determination that a jury
trial was required is based on its conclusion that TCL’s
release payment was “in substance compensatory relief
for TCL’s past patent infringing activity,” Pet’rs’ App.
3a—i.e., damages for patent infringement. But portfolio-

17
wide FRAND rates are not, and do not seek to approximate, court-awarded patent damages, whether those
rates are negotiated by the parties or set through a court
proceeding.
As an initial matter, portfolio-wide FRAND rates
do not depend on an assessment of the precise scope of the
essentiality, infringement, or validity of the licensor’s patents. As described above, parties dealing at the portfolio
level generally do not engage in a thorough patent-by-patent evaluation for each prospective bilateral agreement.
See supra, Section II. Both parties accept a level of uncertainty inherent in portfolio licensing in exchange for a
more efficient and definitive outcome.
The case below is one such example. TCL and Ericsson agreed to adjudicate a portfolio-wide license and
put patent-specific infringement and validity issues to the
side. The record makes clear, however, that the parties
did not agree on the extent to which TCL practices valid
Ericsson patents. Although TCL conceded that some of
Ericsson’s patents are essential to standards it practices,
it did not concede as to all of the patents Ericsson claimed
to be essential, nor did it concede that all of Ericsson’s actually-essential patents are valid. See, e.g., C.A.J.A. 59–
60. The district court took both parties’ positions into account when setting its rates, but made no determination
that any specific patents were or were not valid and infringed.
Moreover, portfolio-wide FRAND rates are not
constrained by limitations the U.S. court system places on
patent damages awards. License terms often cover foreign patents, as well as products manufactured, sold, and
otherwise used only outside the country. U.S. courts, in
contrast, can award patent damages only for patents issued and infringed within the United States. License

18
terms also may cover any time period, while patent damages generally are limited to the six years preceding the
initiation of a claim. See 35 U.S.C § 286.
In practice, these manifest as meaningful, not marginal, differences in scope. Again, the case below is an
example. Given Ericsson’s global patent portfolio and
TCL’s substantial worldwide sales, the district court determined separate regional FRAND rates for sales in the
United States, Europe and the “Rest of the World.” See,
e.g., C.A.J.A. 140. Moreover, the district court’s release
payment dated back to 2007. C.A.J.A. 131. Even if Ericsson had accused TCL of infringing all of its U.S. SEPs at
the time it brought suit (which it did not), it would have
been limited to damages incurred on infringement within
the United States after June 2008, a notably smaller universe than what was covered by the release payment.
These differences underscore the equitable nature
of the relief TCL sought, and Ericsson agreed to abide by,
here: specific performance in the form of a worldwide
portfolio license on FRAND terms. And this difference is
not a mere formality. As amici explain in the next section,
the Federal Circuit’s misconception of FRAND licensing
as merely a sub-species of patent damages threatens to
disrupt negotiations across the industry and deprive parties of critical judicial clarity on these important issues.
IV.

The Federal Circuit’s Misconception of FRAND RateSetting Procedures As Embodying Patent Damages
Will Have Negative Practical Impacts On SEP Licensing.

The nature of portfolio-wide FRAND licensing and
its fundamental differences from patent damages call for
this Court to correct the Federal Circuit’s misconception
of FRAND rate-setting procedures as reverse patent
damages cases requiring jury trials. The vast majority of

19
payments for SEPs result from negotiated licenses, not
litigation, but the judicial system provides the backdrop
against which those negotiations are conducted. Parties
pay very close attention to the few cases that proceed all
the way through litigation to judgment, with the applicable legal principles and factual determinations guiding
and constraining the private actions of parties hoping to
avoid litigation.
This case, for example, was closely watched in the
Federal Circuit, as industry participants sought broadly
applicable guidance regarding the district court’s use of
methodologies like “top-down” apportionment and evaluation of comparable licenses to determine portfolio-wide
FRAND rates. Over two dozen companies, industry alliances, and individuals joined amicus briefs in recognition
of the Federal Circuit’s ability to clarify how portfolio
FRAND rates are determined. Should it stand, the decision below will reshape that legal backdrop, introducing
opacity and inefficiencies that may hamper parties’ abilities to reach mutually-beneficial portfolio license terms
and that may impede the growth of new technologies.
A.

Jury Verdicts In FRAND Rate-Setting Actions
Fail To Set Forth The Useful Guidance For
Negotiating Parties That Well-Reasoned Judicial Opinions Provide.

Negotiating parties crave certainty. The clearer
the parameters for portfolio-wide FRAND terms are to
parties on both sides of the table, the more likely it is they
will be able to reach an agreement without having to resort to legal action. Well-reasoned judicial decisions in the
cases that do reach litigation play a vital role in establishing those parameters and providing guidance to future
negotiators, parties and non-parties alike. See supra, Section II.C.

20
Here, the district court reached a nuanced outcome that consisted of eight different rates—none of
which was wholly adopted from either party’s position.
C.A.J.A. 140. The district court’s elaborate opinion described and applied complex methodologies, and
explained why it adopted, rejected, or made adjustments
to the parties’ positions. The court’s analysis of the
strength of Ericsson’s portfolio across varying geographic
regions, see, e.g., C.A.J.A. 69–72, informs how other parties will negotiate with Ericsson, and provides a common
data point for other parties negotiating over different patents essential to the same cellular standards.
Jury verdicts in FRAND rate-setting actions are
not structured to provide the same type of useful guidance. A final rate, or array of rates, does not tell anyone
how the rate was derived. Even if the members of a jury
applied a consistent approach, no verdict form can ever
hope to pose the appropriate questions, which depend on
the circumstances. Each question only breeds more. Did
the jury apply a top-down analysis, by dividing potentially
available royalties among a pool of essential patents? If
so, does the rate say more about the portfolio’s relative
strength vis-à-vis other portfolios, or the overall level of
available royalties? Is a portfolio strong (or weak) because of the number of actually essential patents versus
mis-declared patents, or because the portfolio’s technical
contributions to the standard was more (or less) valuable
than other patents’ contributions? Did the jury compare
licenses? If so, which licenses did it deem comparable?
How did it account for varying license terms to draw informative comparisons? How did the jury handle crosslicenses, particularly if those licenses contained an aggregate “lump-sum” payment rather than explicit, perstandard, licensing rates? Placing portfolio-wide rate determinations in the hands of juries deprives parties and

21
market participants of these useful guideposts that can
bring more structure and certainty to future negotiations.
In addition to fostering lengthy, contentious, and
inefficient negotiations, the lack of written guidance will
spur more litigation. In FRAND rate-setting actions,
written decisions, more so than jury verdicts, may build to
a consensus over time, eventually establishing the type of
framework that allows parties to anticipate how their
claims will fare in court. Without insight into how litigated rates are set—and the very real possibility that
juries take widely divergent approaches—parties across
a spectrum of licensing positions will always be enticed by
the possibility that they may prevail. Parties will repeat
the same types of arguments about appropriate methodologies, each time with a new audience to educate and
convince regarding the complex issues inherent in setting
FRAND royalties. This costly and inefficient use of the
parties’ and courts’ resources would be mitigated by the
transparency and consensus written judicial decisions can
provide.
B.

The Federal Circuit’s Decision Will Encourage Litigation Focused On Patent-Specific,
Rather Than Portfolio-Wide, Analysis.

Much of the increased litigation stemming from
opaque jury decisions in FRAND rate-setting actions will
look fundamentally different than the dispute TCL and
Ericsson tried to the district court, which evaluated the
license terms at issue on a portfolio-wide basis reflective
of the approach parties take in the real world. This is because, if the Federal Circuit’s decision stands, the cases
parties try going forward likely will reflect the judicial
system’s mis-categorization of FRAND rate-setting as
the equivalent of patent damages. In particular, it is
amici’s view that if the Court treats FRAND rate-setting

22
as merely “inverted” patent damages, the result will be
less portfolio-wide litigation and more generic patent litigation. Litigation over a full portfolio of thousands of
patents is risky; a rate that is too high can cripple an implementer and a rate that is too low can devalue the fruits
of innovation. That risk, until now, was balanced by the
fact that judges would evaluate and reason about these
portfolios drawing from the unique nature of the FRAND
contractual obligations and the complex economics that
attend those obligations. But if these disputes are simply
to be viewed as patent damages, it is unlikely that either
side will risk an evaluation of an entire portfolio. Instead,
patent holders will likely sue on a few “prize” patents, and
implementers may counter-sue via declaratory judgment
to invalidate what they perceive as “vulnerable” patents.
A move away from the portfolio-wide view and towards more patent-by-patent adjudication is inefficient
and undesirable. Parties and courts will spend more resources to litigate actions that may not reach a global
resolution of all disputed issues. Moreover, focusing on
specific patents in isolation conflicts with the principles
governing patent royalties. “Reasonable royalty” determinations, for SEPs as for all patents, are grounded in a
hypothetical negotiation framework that reflects what a
willing licensee and a willing licensor would have agreed
to for the patents at issue if they had succeeded in negotiating a rate. See Minks v. Polaris Indus., Inc., 546 F.3d
1364, 1372, (Fed. Cir. 2008); see also, e.g., Microsoft, 2013
WL 2111217, at *3, *14–15 (applying hypothetical negotiation framework in FRAND context); Innovatio, 2013
WL 5593609, at *6 (same). As described above, real-world
SEP negotiations take place on the portfolio, not individual patent, level. See supra, Section II.A. The district
court’s “top-down” approach was a reasonable approximation of the way parties think about these licensing

23
negotiations, with an eye toward the potential “royalty
stack” of all SEPs incorporated in a standard, in contrast
to an approach that attempts to value individual patents
one at a time.
Patent-by-patent adjudication fails to incorporate
this type of holistic analysis, which, over the long term,
benefits both inventors and implementers, and ultimately
consumers. See supra, Section II.A. For example, patent-by-patent litigation over certain Wi-Fi SEPs
underscores the risk of a grossly excessive royalty stack.
Five district court judgments that addressed 35 Wi-Fi
SEPs would, if implemented, account for a 4.5% royalty
on a hypothetical fifty-dollar router. Jason R. Bartlett &
Jorge L. Contreras, Rationalizing FRAND Royalties:
Can Interpleader Save the Internet of Things, 36 Rev.
Litig. 285, 295–96 (2017). But there are over three thousand patents declared essential to the standard at issue in
those cases, suggesting the possibility of an aggregate
royalty rate orders of magnitude larger. Id. Royalty
stacks like this would severely hamper the manufacture
and distribution of standards-implementing devices, and
are far more likely to result from patent-by-patent analysis than portfolio-wide evaluation.
By reviewing and correcting the Federal Circuit’s
decision, this Court can ensure that party and non-party
negotiators alike continue to benefit from the guidance of
well-reasoned FRAND opinions, and encourage parties to
focus on portfolio rates inside the courtroom just as they
do in real-world negotiations. The alternative approach,
following from the Federal Circuit’s decision, will introduce unnecessary friction into the licensing negotiations
and adjudications that are essential to a well-functioning
system of innovative and widely adopted standards.

24
CONCLUSION

For the reasons described herein, amici respectfully
urge this Court to issue a writ of certiorari and review the
Federal Circuit’s decision below.
Respectfully submitted,
SAMUEL BRYANT DAVIDOFF
Counsel of Record
MELISSA B. COLLINS
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
sdavidoff@wc.com
JUNE 5, 2020

